   November 25, 2003




Acquisition

Accounting for Pension Assets
Under Advance Agreements with
Northrop Grumman and Litton
Industries, Inc.
(D-2004-025)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACO                   Administrative Contracting Officer
CAS                   Cost Accounting Standards
CIPR                  Contractor Insurance/Pension Review
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
ERISA                 Employee Retirement Income Security Act
FAS                   Financial Accounting Standard
          Office of the Inspector General of the Department of Defense
Report No. D-2004-025                                                  November 25, 2003
   (Project No. D2003PT-0006)

        Accounting for Pension Assets Under Advance Agreements
           with Northrop Grumman and Litton Industries, Inc.

                                 Executive Summary

Who Should Read This Report and Why? DoD and private sector contracting,
accounting, and audit officials who deal with Defense contractor business combinations,
divestitures, and pensions should be interested in this report.

Background. This report is a review of the pension plans and DoD-funded pension
assets affected by the Northrop Grumman acquisition of Litton Industries, Inc. and the
Northrop Grumman’s merger of its pension plans. The Northrop Grumman acquisition
of Litton resulted in $2.9 billion of pension assets being transferred to Northrop
Grumman.

In July 1997, prior to the Northrop Grumman acquisition of Litton, the Government and
Litton entered into an advance agreement concerning the disposition of pension asset
surpluses remaining in the Litton pension trust after the sale by Litton of the Precision
Gear and Itek Optical Divisions. The Cost Accounting Standards (CAS) most relevant to
the advance agreement are CAS 413.50(c)(7), covering the contractor requirement to
maintain pension asset accounting records, and CAS 413.50(c)(12), covering the
settlement of pension assets when a contractor sells a business.

On September 15, 1995, the Government and Northrop Grumman entered into an
advance agreement on Northrop Grumman’s merger of its pension plans. The 1995
advance agreement incorporated a CAS Board waiver of the CAS 413.50(c)(3)
requirement to calculate separate pension costs on merged pension plans that have
different funding ratios. This waiver was contingent upon Northrop Grumman’s
continuing to maintain asset records for each pension plan as required by
CAS 413.50(c)(7).
Results. Several CAS non-compliance issues exist regarding the pension asset surplus
calculation, the allocation of Government-funded surplus assets to segments with
commercial pension liabilities, the calculation of investment experience on Government-
funded pension assets, and the amortization schedule used on Government-funded
pension assets under the 1997 advance agreement between the Government and Litton
Industries. As a result, the Government may not have received proper credit under the
advance agreement for surplus Government-funded pension assets as determined in
accordance with CAS 413.50(c)(12). The Defense Contract Audit Agency (DCAA)
should determine the correct amount of Government-funded pension surplus; determine
to what extent Government-funded assets were allocated to fund commercial liabilities;
determine if the correct trust investment experience was credited for each year in
calculating the asset balances; and determine the affect on the pension asset credit due the
Government caused by using the incorrect amortization amounts. The Defense Contract
Management Agency should renegotiate the advance agreement with the contractor, as
provided for under paragraph 12 of the agreement, to incorporate the DCAA
determination of the proper amount of pension funding credit due the Government
(finding A).

Also in question is the accuracy of the Northrop Grumman accounting for
Government-funded pension assets. The January 1, 1999, market value of assets stated in
the Northrop Grumman Pension Plan, CAS Valuation Report, is $4.7 million less than
the January 1, 1999, market value of assets stated in a report prepared by the contractor’s
actuary. Inconsistent reporting gives the Government a reason to question the accuracy
of the pension asset records. Since the asset balance is an integral part of actuarial
pension cost calculations, future pension costs charged to Government contracts could be
affected. The DCAA should review the accuracy of Northrop Grumman’s pension
accounting from 1995 to the present to determine compliance with CAS 413.50(c)(7),
and the 1995 advance agreement (finding B). See the Finding section of the report for
the detailed recommendations.

Management Comments and Evaluation Response. The DCAA agreed to determine
the correct amount of Government-funded pension surplus; the extent to which
Government-funded assets were allocated to fund commercial liabilities; and the effect
on the pension asset credit due the Government caused by using the incorrect
amortization amounts to allocate the surplus. The DCAA also agreed to review the
accuracy of Northrop Grumman’s pension accounting. The DCAA did not agree to
determine if the correct trust investment experience was credited for each year in
calculating the asset balances. The DCAA does not agree with our position that there are
conflicting provisions in the advance agreement as to the method for crediting investment
experience. However, we maintain that determining whether the Government received
proper credit for investment experience under the advance agreement is a valid audit step.
If the DCAA determines that there is an error in any of the surplus amounts, allocation
amounts, and amortization, it follows that the investment experience calculation also
needs to be corrected. Accordingly, we request that the DCAA reconsider their position
in responding to this recommendation in their comments on the final report by January
26, 2004.
The Defense Contract Management Agency concurred with the recommendation to
renegotiate the advance agreement, therefore, no further comments are required. See the
Finding section of the report for a discussion of the management comments on the
recommendations and evaluator response, and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                               i

Background                                                     1

Objectives                                                     3

Findings
     A. Litton Industries Advance Agreement                     4
     B. Accuracy of Northrop Grumman’s Pension Asset Records   11

Appendixes
     A. Scope and Methodology                                  13
     B. Prior Coverage                                         14
     C. Report Distribution                                    16

Management Comments
     Defense Contract Audit Agency                             19
     Defense Contract Management Agency                        23
Background
    Pension accounting is unique in that the majority of pension accounting
    transactions are not entered in the financial accounting records of a public
    corporation. Financial Accounting Standard (FAS) No. 87, “Employers
    Accounting for Pensions,” controls the way corporations determine and record
    pension information for financial accounting purposes. The Employee
    Retirement Income Security Act (ERISA) of 1974, as amended, provides
    regulations for pension accounting on a plan basis. The annual FAS 87 pension
    expense recorded by a corporation would rarely equal the annual pension funding
    amount that ERISA requires. The FAS 87 asset accounting also differs from the
    asset accounting maintained under ERISA.

    Generally, corporations that negotiate contracts of $50 million or more with the
    Government are also required to comply with Government contract accounting
    rules under the Cost Accounting Standards (CAS). Rules for pension accounting
    fall under CAS 412, “Composition and Measurement of Pension Cost,” and
    CAS 413, “Adjustment and Allocation of Pension Cost.” The pension accounting
    rules under CAS 412 and CAS 413 closely parallel ERISA pension accounting.
    However, a major difference between CAS and ERISA is that CAS provides for
    segment accounting, which is more detailed if a pension plan has several
    segments.

    Another major difference between CAS and ERISA is the method for allocating
    pension plan assets when plan assets are divided as the result of a business
    divestiture. Under ERISA, all of the plan assets are available to cover all of the
    plan liabilities, and the assets are substantially allocated in proportion to the
    liabilities. Under CAS, pension costs charged to a business segment with
    Government contracts become assets assigned to the segment. The segmented
    assets are designated to cover the segment liabilities. The findings in this
    evaluation substantially relate to differences between ERISA and CAS accounting
    for pension assets.
    Several of the more pertinent CAS references pertaining to the issues in this
    report are 413.50(c)(3), 413.50(c)(7), and 413.50(c)(12). CAS 413.50(c)(3)
    requires the calculation of separate pension costs on merged pension plans that
    have different funding ratios. CAS 413.50(c)(7) covers how a contractor must
    maintain pension asset accounting records. CAS 413.50(c)(12) covers the
    settlement of pension assets when a contractor sells a business.

    Litton Industries Inc. Litton Industries, Inc., designs, builds, and overhauls
    surface ships for Government and commercial customers, and is a provider of
    defense and commercial electronics technology, components, and materials. In
    addition, the company is a prime contractor to the U.S. Government for
    information technology and provides specialized information technology services
    to commercial and Government customers. The Company was founded in
    California in 1953 and has approximately 40,300 employees. On January 5,
    2001, the Northrop Grumman Corporation bought Litton Industries, Inc., for
    $5.1 billion.



                                        1
Northrop Grumman Corporation. Northrop Grumman is an advanced
technology company with corporate offices in Los Angeles, California, and sites
in 37 other states. The corporation’s business includes the design, development,
and production of military aircraft, radar and electronics systems, airspace
management and information systems, marine propulsion, precision weapons,
information technology, and commercial and military aerostructures. The
company also provides information systems support and services, training and
training system development and support, and military and commercial
technology research and development. There are approximately 20 business units
with Government contracts.

Defense Contract Audit Agency. The Defense Contract Audit Agency (DCAA)
performs the contract audits for DoD, and provides accounting and financial
advisory services regarding contracts and subcontracts to the DoD Components
responsible for procurement and contract administration.
Defense Contract Management Agency. The Defense Contract Management
Agency (DCMA) performs price/cost analyses, overhead and contractor system
reviews, financial services, property and plant clearance, transportation and
packaging, and termination settlements for DoD. DCMA also provides program
and technical support by analyzing costs, schedules, and technical performance of
contractor programs and systems.

Contractor Insurance/Pension Review Teams. The Contractor
Insurance/Pension Review (CIPR) team is responsible for conducting CIPRs,
which are comprehensive reviews of contractors’ insurance programs, pension
plans, other deferred compensation plans and related policy, procedures,
practices, and costs. A CIPR is initiated at the request of the Administrative
Contracting Officer. DCAA auditors and DCMA insurance/pension specialists
comprise the CIPR team.

If a business combination (merger) occurs, the CIPR team must determine
whether the contractor has complied with the special segment closing provisions
of CAS 413.50(c)(12). The determination requires an analysis of the contractor’s
calculation of the pension assets and liabilities, and the allocation of the assets
and liabilities to the segments involved in the transaction. The asset and liability
balances determine the basis for measuring the effect of the adjustment on
previously determined pension costs which CAS 413.50(c)(12) requires.

The contractor’s accounting for pension assets and liabilities must comply with
the measurement and allocability requirements of CAS 412 and CAS 413 and
must be allocable, reasonable, and allowable in accordance with Federal
Acquisition Regulation, Subpart 31.2.

The CIPR program review steps cover the key aspects of accounting for pension
assets and liabilities for segment closings, benefit curtailments, and plan
terminations.

Litton Pension Plans. As of January 1, 1989, Litton changed the name of their
pension plan (Plan number 4) from Litton Industries Retirement Plan to Litton
Industries Retirement “Plan A” and created a second plan—Plan number 9, Litton


                                     2
    Industries Retirement Plan B. As of December 31, 1988, 20 of the approximately
    53 segments under Plan A were transferred to Plan B. The reason for the division
    of the two plans was to maintain Plan A for commercial divisions (segments) and
    to establish Plan B for Government divisions (segments). The Northrop
    Grumman acquisition of Litton resulted in $2.9 billion of pension assets being
    transferred to Northrop Grumman.


Objectives
    Our objective was to evaluate the pension plans and DoD-funded pension assets
    affected by the Northrop Grumman acquisition of Litton Industries, Inc.




                                       3
           A. Litton Industries Advance Agreement
           Several CAS non-compliance issues exist regarding the calculation,
           disposition of surplus, crediting of investment experience, and the
           amortization schedule, used to account for Government-funded pension
           assets under the advance agreement between the Government and Litton
           Industries covering the sales of Precision Gear and Itek Optical (Itek)
           Divisions. The surplus amount in the advance agreement is less than the
           amount detailed in the concurrent financial statement. Government-
           funded assets were allocated to underfunded segments resulting in
           Government funding of commercial liabilities. There are conflicting
           agreement provisions for crediting investment experience. The annual
           amortization amounts according to the advance agreement do not agree
           with standard amortization calculations. As a result, the Government has
           not received proper credit under the advance agreement for surplus
           Government-funded pension assets as determined in accordance with
           CAS 413.50(c)(12).


Defense Contract Management Agency CIPR
    Request for CIPR Assistance. In May of 1996, DCAA requested a DCMA
    CIPR of Litton’s 1994 sale of its Precision Gear Division to the Boeing Company
    and the 1996 sale of its Itek Division to the Hughes Company. According to
    DCAA, both segments had surplus pension assets at the time of the sale.
    Additionally, DCAA stated that the sale of both segments represented a segment
    closing in accordance with CAS 413.50(c)(12) and that the Government should
    share in the surplus assets of the closed segments.

    CIPR Conclusions. In September of 1996, DCMA responded to the DCAA
    request for assistance. DCMA agreed that the sale of a segment coupled with
    retention by the seller of pension assets and liabilities of a segment is equivalent
    to the closing of a segment and therefore a credit is due the Government as an
    adjustment of previously determined pension costs.


Advance Agreement on Pension Accounting for Sale of Litton
  Itek Optical and Precision Gear Divisions
    On July 28, 1997, the Government and Litton Industries entered into an advance
    agreement regarding the Precision Gear and Itek pension segments. The purpose
    of the agreement was to resolve pension cost accounting issues under
    CAS 413.50(c)(12) as a result of the sale of Precision Gear and Itek.

    The methodology set forth by the advance agreement is as follows:

       •   The pension asset surplus (or deficit) associated with the sale of Precision
           Gear and Itek is the difference between the actuarial liability and the


                                          4
           market value of the assets on December 31, 1994, for Precision Gear and
           on December 31, 1995, for Itek.

       •   The Government’s share of the pension asset surplus will be calculated
           using the segment’s business contract base. The percentage of
           CAS covered contracts was determined to be 95 percent of the total dollar
           value of all Precision Gear contracts and 80 percent of the Itek contracts.

       •   The Government pension asset surplus will be 95 percent of $4,323,496
           (or $4,107,321) for Precision Gear and 80 percent of $24,837,283
           (or $19,869,826) for Itek.

       •   The Government will recognize its share of the pension asset surplus by
           receiving credits against otherwise allowable pension costs. This will be
           accomplished using an amortization schedule based on a 5-year annual
           payout and an 8-percent interest rate. The annual amortization amount
           will be allocated to other segments with pension asset deficits.


Review of Advance Agreement
    Several CAS non-compliance issues exist in the advance agreement between the
    Government and Litton Industries concerning the treatment of the Itek and
    Precision Gear pension asset surpluses.

       •   The surplus of Government-funded pension assets as stated in the advance
           agreement does not agree with the surplus asset balance as stated in
           financial reports prepared by Litton’s actuary.

       •   Government-funded pension surplus assets have been allocated to
           segments with Government and commercial pension liabilities, but
           without any corresponding commercial payment.
       •   There are conflicting provisions in the advance agreement as to the
           method for crediting investment experience on Government-funded
           pension assets. The conflict involves using the actual investment
           experience versus a fixed interest rate of 8 percent.

       •   The Precision Gear and Itek annual amortization amounts as stated in the
           advance agreement are incorrect.


Government-Funded Pension Asset Surplus
    The surplus of Government-funded pension assets, as stated in the advance
    agreement between the Government and Litton, is understated as compared to the
    actuarial financial report surplus asset balance. This indicates the Government
    may not have received proper credit for surplus Government-funded pension



                                        5
    assets relative to the difference between the advance agreement and the financial
    report surplus balances.

    According to the July 1997 advance agreement between Litton and the
    Government, the amount of Itek surplus to be amortized should be the difference
    between the actuarial liability and the market value of the assets on
    December 31, 1995, as indicated in the January 1, 1996, actuarial valuation report
    for Itek. There is a discrepancy between the Itek surplus amount to be amortized,
    as stated in the advance agreement, and the amount as presented in the actuarial
    report. The amount stated in the advance agreement as the difference between the
    actuarial liability and the market value of the assets, as of December 31, 1995, for
    Itek, is $24,837,283. However, according to the actuarial statement, the
    difference between the actuarial liability and the market value of the assets as
    indicated in the January 1, 1996, actuarial valuation is $25,712,530. This
    represents a net discrepancy of $875,247 in the amount of pension asset surplus
    available for calculating the Government’s share.

    We also question the correctness of the amount stated in the advance agreement
    as the difference between the actuarial liability and the market value of the assets
    for Precision Gear as of December 31, 1994. The surplus amount, as of
    December 31, 1994, according to the advance agreement is $4,323,496.
    However, the Precision Gear surplus as of April 30, 1994, according to Litton’s
    actuary, was $5,714,058; and as of December 31, 1995, was $7,606,024. The two
    actuarial reports bracket the advance agreement and show a surplus difference of
    $1,390,562 recorded prior to the agreement, and a surplus difference of
    $3,282,528 subsequent to the agreement. An actuarial report as of
    January 1, 1995, was not available for comparison to the surplus amount in the
    advance agreement. However, we do not find it reasonable that there was a 24
    percent decrease in the surplus between April 30, 1994, and December 31, 1994,
    and an increase of 76 percent in the surplus between December 31, 1994, and
    December 31, 1995.

    The differences between the advance agreement and the actuarial financial
    reporting need to be reconciled in order to determine the correct amount of the
    Precision Gear and Itek pension asset surplus for calculating the credit due the
    Government.


Allocation of Government-Funded Pension Asset Surplus to
  Segments With Commercial Liabilities
    Amortization of Surplus to Segments With Commercial Liabilities.
    Government-funded pension surplus assets have been used to fund commercial
    pension liabilities. The contractor allocated 100 percent Government-funded
    pension assets to segments that have Government and commercial liabilities
    without a corresponding input of commercial funding by the contractor. As a
    result, the Government funding covered both Government and commercial
    liabilities, and the Government has not received proper credit under the advance
    agreement for surplus Government-funded pension assets.



                                         6
     According to the advance agreement: “The Government’s share of any pension
     surplus or deficit of the former divisions retained in Plan 9 [Plan B], as described
     in paragraph 9 hereof, shall be credited first to each Plan 9 Share Plan Code
     which is in a deficit status, on a pro-rata basis, based upon the ratio of the deficit
     level of the Share Plan Code to the total of all Plan 9 [Plan B] Share Plan Codes
     with a deficit. Any credit not used shall be credited to all Share Plan Codes
     (excluding those of the former divisions) on a similar pro-rata basis. The
     company shall maintain records identifying the allocation of surplus, or deficit, as
     applicable, among share plan codes of Plan 9, and shall furnish such information
     to the Government on request.”

     Litton, as of December 31, 1994, had 27 Government segments in Plan B, 12 of
     which required funding. Prior years’ sales reviews show that most, if not all,
     segments in Plan B have a mix of Government and commercial business. Thus,
     the method of allocating the Government-funded surplus, as provided for in the
     advance agreement, without a corresponding input of commercial funding, is
     inequitable to the Government. The conclusion is that part of the Government-
     funded surplus allocated to under-funded segments was used to fund commercial
     liabilities.


Crediting of Investment Experience on the Precision Gear and
  Itek Principal Sums
     There are conflicting provisions in the advance agreement as to the method for
     crediting investment experience on Government-funded pension assets. As a
     result, the Government may not have received proper credit under the advance
     agreement for the amortization of the Precision Gear and Itek surpluses.

     The advance agreement stated that the Precision Gear and Itek sales would be
     treated as if a CAS 413 segment closing occurred on their respective dates of sale.
     Paragraph 4 of the agreement states that the Precision Gear and Itek pension
     assets will remain as part of Litton Plan 9 (Plan B), and otherwise be accounted
     for in the same manner as before the sale of the former Divisions. This
     accounting for assets “in the same manner” includes the crediting of the same
     investment experience to the Precision Gear and Itek assets as is applied to all
     other Litton Plan 9 segments. Thus, based on this provision of the advance
     agreement, the Precision Gear and Itek pension fund should be credited with the
     actual investment income rates of return for the years in question. The actual
     trust fund investment experience realized on the assets was 17.7 percent for 1996,
     19.3 percent for 1997, 15.8 percent for 1998, 39.7 percent for 1999, and a
     negative 5.33 percent for 2000.

     However, paragraph 9 of the agreement provides for a distribution of the
     Precision Gear and Itek asset surplus balances to under-funded segments using an
     amortization schedule based on an 8-percent interest rate and a 5-year payment
     duration.




                                           7
    Differences Between Investment Experience Calculations. Compounding the
    actual investment experience over the 5-year period calculates to a factor of 2.15
    ($1.00 in the trust on 1/1/96 has appreciated to $2.15 on 12/31/2000).

    Compounding the amortization interest rate, as stated in the advance agreement,
    over the 5-year period calculates to a factor of 1.47 ($1.00 on 1/1/96 has
    appreciated to $1.47 on 12/31/2000).

    The difference between the two compounding factors (2.15 and 1.47) is 68, or
    $0.68 per $1.00 of principal sum. However, the advance agreement does not
    address how the Government and Litton should handle the difference between the
    actual investment experience and the 8-percent interest rate.

    At the end of 5 years, there should be an estimated remaining balance of
    approximately $2.0 million in the Precision Gear segment trust account and
    approximately $9.0 million in the Itek segment trust account. The estimate is
    based on CAS 413.50(c)(7) segment accounting which starts with the beginning
    asset balance, adds the actual investment experience, and subtracts the annual
    amortization transfer for each of the 5 years.

    The difference between the actual investment experience and the 8-percent
    amortization interest rate must be addressed to determine if the Government
    received proper credit on the asset balance as determined using CAS 413.50(c)(7)
    accounting.


Amortization Schedule
    The Precision Gear and Itek annual amortization amounts as stated in the advance
    agreement are incorrect. The annual amortization amounts as stated in the
    advance agreement do not agree with calculations performed using standard
    amortization calculations. As such, the amortization amount of the Precision
    Gear and Itek pension credit due the Government may be incorrectly stated in the
    advance agreement.

    Precision Gear. The Precision Gear surplus of $4,107,321 was amortized at
    8 percent over a 5-year period which, according to the advance agreement, yields
    a yearly amortization of $882,070. However, the annual amortization amount as
    stated in the advance agreement differs from results obtained using standard
    amortization calculations. The correct annual amortization amount, using the
    same assumptions, is $1,028,705. This is a difference of $146,635. This
    difference needs to be reconciled to determine if the amortization amount of the
    Precision Gear pension credit due the Government has been understated in the
    agreement.

    Itek. A similar situation exists for Itek. The Itek surplus of $19,869,826 was
    amortized at 8 percent over a 5-year period which, according to the advance
    agreement, yields a yearly amortization of $5,067,246. However, the annual
    amortization amount as stated in the advance agreement differs from results
    obtained using standard amortization calculations. The correct annual


                                         8
    amortization amount, using the same assumptions, is $4,976,526. This is a
    difference of $90,720. This difference needs to be reconciled to determine if the
    amortization amount of the Itek pension credit due the Government has been
    misstated in the agreement.


Recommendations, Management Comments, and Evaluation
  Response
    A.1. We recommend that the Director, Defense Contract Audit Agency:

           a. Determine the correct amount of Government-funded pension
    surplus for Precision Gear and Itek as of 1996 calculated in accordance with
    CAS 413.50(c)(12).

           Management Comments. The DCAA concurred and stated that their
    determination should be completed by October 31, 2003. A December 2003
    estimate of completion has since been given to IG evaluators.

           b. Determine to what extent Government-funded pension assets for
    Precision Gear and Itek were used to fund commercial pension liabilities.

           Management Comments. The DCAA concurred and stated that their
    determination should be completed by October 31, 2003. A December 2003
    estimate of completion has since been given to IG evaluators.

           c. Determine the accuracy of the trust investment experience credited
    for each year for Precision Gear and Itek in calculating the surplus asset
    balances from 1996 through 2000 in accordance with CAS 413.50(c)(7).

    Management Comments. The DCAA nonconcurred with the recommendation.
    The DCAA stated that there are not conflicting provisions in the advance
    agreement regarding the method for crediting investment experience on
    Government-funded pension assets, and that the Government was not harmed.
    The DCAA stated that the purpose of Paragraph 4 of the advance agreement
    which states, in part, “The pension assets and liabilities of the Former Divisions
    will continue as part of Litton Plan 9, assigned to their respective Plan 9 Share
    Plan Codes, and otherwise accounted for in the same manner as when the Former
    Divisions were a part of Litton,” was to establish that the retained assets and
    liabilities of the former divisions, Precision Gear and Itek, would continue to be
    separately accounted for. Additionally, the DCAA stated that while they agree
    that the retained assets earn the actual investment income rates of return, the
    administrative contracting officer (ACO) negotiated with the contractor in the
    advance agreement that the Government’s share of the segment closing
    adjustment surplus assets would earn at an annual rate of 8 percent. The DCAA
    further stated that the ACO was within his authority under CAS 413.50(c)(12) to
    negotiate a fixed interest rate. In addition, the DCAA is of the opinion that during
    the 5-year period that the segment closing adjustment was amortized, the actual
    rate of return on the pension assets could have potentially been less than the
    8 percent provided for in the advance agreement. As such the advance agreement


                                         9
has, in effect, placed the risk associated with subsequent fluctuations in
investment experience on the contractor.

Evaluation Response. The DCAA comments are nonresponsive. We requested
that the DCAA determine the accuracy of the trust investment experience credited
for each year for Precision Gear and Itek in calculating the surplus asset balances
from 1996 through 2000 in accordance with CAS 413.50(c)(7). The DCAA has
already agreed to perform an audit of the advance agreement, and has concurred
with recommendations to include the surplus amounts, allocations, and
amortization in the audit scope. The DCAA has nonconcurred with our
recommendation to include an audit of the investment experience as part of their
audit scope. Their reason for not including the investment experience as part of
the audit scope is that they disagreed that there are conflicting provisions in the
advance agreement on the crediting of investment experience. They refer to
paragraph 9 of the advance agreement without giving a specific citation to support
their position. We maintain our position that determining whether the
Government received proper credit for investment experience under the advance
agreement is a valid audit step. If the DCAA determines that there is an error in
any of the surplus amounts, allocation amounts, and amortization, it follows that
the investment experience calculation also needs to be corrected. Accordingly,
we request that the DCAA reconsider their position in responding to this
recommendation in their comments on the final report by January 26, 2004.

        d. Determine the effect on the pension asset credit due the
Government caused by using the incorrect annual amortization amounts for
the allocation of the Precision Gear and Itek asset surpluses.

       Management Comments. The DCAA concurred and stated that their
determination should be completed by October 31, 2003. A December 2003
estimate of completion has since been given to IG evaluators.

A.2. We recommend that the Director, Defense Contract Management
Agency renegotiate the advance agreement with the contractor, as provided
for under paragraph 12 of the agreement, to incorporate the determinations
reached by DCAA in complying with recommendation A.1.

Management Comments. The DCMA concurred and stated that it is in the
process of jointly reviewing, with the DCAA, to determine if the Government
received the proper credit under the advance agreement for surplus Government-
funded pension assets as determined in accordance with CAS 413.50(c)(12). The
report should be issued by October 31, 2003. A December 2003 estimate of
completion has since been given to IG evaluators. Also, the DCMA stated that if
the joint report indicates that the Government has not received the proper amount
of credit, the advance agreement will be renegotiated with Northrop Grumman.




                                     10
           B. Accuracy of Northrop Grumman’s Pension
               Asset Records
           The January 1, 1999, market value of assets for the primary Northrop
           Grumman Pension Plans, as stated in the Northrop Grumman Pension Plan
           CAS Valuation Report, is $4.7 million less than the January 1, 1999,
           market value of assets as stated in a report prepared by the contractor’s
           actuary. Northrop Grumman has not reconciled two separate reports
           provided to DCAA which contain different January 1, 1999, asset
           balances. Inconsistent reporting brings into question the accuracy of the
           pension asset balances maintained by Northrop Grumman as required by
           CAS 413.50(c)(7). Since the asset balance is an integral part of actuarial
           pension cost calculations, future pension costs charged to Government
           contracts could be affected.


Northrop Grumman Advance Agreement
    On September 15, 1995, the Government and Northrop Grumman entered into an
    advance agreement on Northrop Grumman’s merger of its pension plans.

    The agreement incorporated a Cost Accounting Standards Board waiver of
    CAS 413.50(c)(3) requested by Northrop Grumman affecting the merger of the
    primary defined benefit pension plans sponsored by Northrop Grumman. The
    Cost Accounting Standards Board granted the waiver contingent upon Northrop
    Grumman continuing to maintain records of contributions, investment experience,
    benefit payments, expenses, and transfers as required by CAS 413.50(c)(7) so that
    a segment closing adjustment in accordance with CAS 413.50(c)(12) could
    readily be calculated. The stated purpose of the merger was to eliminate the need
    for required contributions to the Grumman and Rolling Meadows Plans. The
    Government would benefit from reduced acquisition costs estimated at
    approximately $390 million.
    CAS 413.50(c)(7) Records. We requested DCAA to provide the Northrop
    Grumman records that demonstrate compliance with the Advance Agreement of
    September 1995 for maintaining CAS 413.50(c)(7) records. In September of
    1999, DCAA issued report number 4721-99F19413001, Report on Compliance
    with CAS 413-Allocation of Pension Costs. The report stated that no issues of
    noncompliance with CAS 413 were noted. However, the records DCAA accepted
    as CAS 413.50(c)(7) records did not have all of the elements needed to constitute
    a complete record. The records did not show the contributions, investment
    experience, benefit payments, expenses, and transfers. The records, as provided
    by DCAA, only showed the beginning of the year market value of assets for the
    primary plans. The total January 1, 1999, market value of the Northrop,
    Grumman, and Rolling Meadows asset balances was $10,615.9 million. DCAA
    agreed to determine if the contractor was maintaining a complete
    CAS 413.50(c)(7) record.




                                       11
    DCAA Followup. On May 12, 2003, DCAA sent us the CAS 413.50(c)(7)
    records as provided by Northrop Grumman. The records, covering the years 1999
    and 2000, comply with CAS 413.50(c)(7). However, we question the accuracy of
    the records. We compared the records we received to the DCAA working papers
    to support the September 1999 CAS 413 audit of Northrop Grumman. The report
    we originally obtained from the DCAA audit work paper, as prepared by the
    Northrop Grumman actuary, stated the total January 1, 1999, market value of the
    Northrop, Grumman, and Rolling Meadows asset balances was $10,615.9 million.
     However, the Northrop Grumman CAS 413.50(c)(7) record as provided by
    DCAA on May 12, 2003, stated the total January 1, 1999, market value of the
    Northrop, Grumman, and Rolling Meadows asset balances as $10,611.2 million.
    This represents a net difference of $4.7 million. The discrepancy in the
    January 1, 1999, market value as stated in the two Northrop Grumman reports
    may have an effect on subsequent market values. The fact that we uncovered this
    asset balance discrepancy in a limited number of records brings into question the
    accuracy of Northrop Grumman’s CAS 413.50(c)(7) records.


Recommendation
    B. We recommend that the Director, Defense Contract Audit Agency review
       the accuracy of Northrop Grumman’s pension accounting from 1995 to
       the present. The review should determine compliance with CAS
       413.50(c)(7) for the period during which the advance agreement has been
       in effect.

    Management Comments. The DCAA concurred and stated that their
      determination should be completed by October 31, 2003. A December 2003
      estimate of completion has since been given to IG evaluators.




                                       12
Appendix A. Scope and Methodology
   We reviewed the primary pension plans for Litton Industries Inc. and Northrop
   Grumman Corporation. We also reviewed the pension data DCAA auditors and
   DCMA pension specialists obtained during their oversight of contractor pensions.
   We reviewed data for January 1988 through January 2001.

   We obtained the pension reports prepared by the contractor to comply with
   ERISA reporting requirements from the Department of Labor. Our review
   included the Department of Labor/Internal Revenue Service Form 5500 (Plan
   Annual Report), Schedule B, prepared by the plan’s actuary, and the supporting
   plan financial reports prepared by the contractor’s public accounting firm. We
   requested the contractor CAS pension records through DCAA to minimize
   duplicative requests to the contractors. As of May 2003, the Litton pension
   records have not been made available. We obtained some specific Litton records
   from DCMA and DCAA covering the advance pension agreements resulting from
   the sale of the Precision Gear and Itek Divisions. DCAA provided us with a
   limited number of Northrop Grumman records that caused us to question
   Northrop Grumman’s compliance with CAS 413.50(c)(7).

   We performed this evaluation from October 1, 2002, through October 2003 in
   accordance with standards implemented by the Inspector General of the
   Department of Defense.

   We limited the scope because the contractor did not furnish CAS 413.50(c)(7)
   pension plan asset accounting records within a reasonable amount of time. The
   scope of the evaluation was also limited in that we did not review the
   management control program.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this evaluation.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the Department of Defense. This report
   provides coverage of the Contract Management high-risk area.




                                       13
Appendix B. Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued three reports that discuss the effects of business
    combinations on pension plans and DoD-funded pension assets. Also, within the
    last 5 years, DCAA has issued 19 reports relating to Litton’s or Northrop
    Grumman’s pension costs (now parent to Litton). Unrestricted IG DoD reports
    can be accessed at http://www.dodig.osd.mil/audit/reports.


IG DoD
    IG DoD Report No. D-2002-145, “Effect of the Raytheon Defense Business
    Acquisitions on Pension Plans and DoD-Funded Pension Assets,”
    September 11, 2002

    IG DoD Report No. D-2000-126, “Evaluation of Boeing and Rockwell
    Corporation Pension Asset Transfers,” May 19, 2000

    IG DoD Report No. 99-156, “Evaluation of the Effect of the Boeing, Rockwell,
    and McDonnell Douglas Business Combination on Pension Plans and
    DoD-Funded Pension Assets,” May 13, 1999


DCAA
    DCAA Report No. 4721-2002F23000007, “Report on Audit of Litton Pension
    Plan Projections and Allocations for 2002 Through 2006 Forward Pricing,”
    June 12, 2002

    DCAA Report No. 4721-2002F23000004, “Report on Audit of Pension Plan
    Projections and Allocations for 2002 Through 2006 Forward Pricing,”
    February 28, 2002

    DCAA Report No. 4721-2001F19412001, “Compliance with CAS 412-
    Composition and Measurement of Pension Costs,” November 6, 2001

    DCAA Report No. 4721-2001F10160002, “Report on Audit of 1999 Pension
    Costs,” September 10, 2001DCAA Report No. 4231-2000G14410001, “Audit of
    Contractor Fiscal Year (CFY) 2000 Pension and Restoration Plan Costs,” May
    30, 2001

    DCAA Report No. 4721-2001F23000005, “Report on Audit of Pension Plan Cost
    Projections for CFY 2000 Through 2007,” April 6, 2001

    DCAA Memorandum No. 4721-2001F17900002, “Request for CAS Waiver for
    Proposed Merger of the Northrop Grumman and Logicon RVP Pension Plans,”
    December 15, 2000

                                      14
DCAA Report No. 4721-2000F10160008, “Report on Audit of 1998 Pension
Costs,” September 27, 2000

DCAA Report No. 4231-2000G19412001, “Audit of Compliance with Cost
Accounting Standard 412 Composition and Measurement of Pension Cost,”
September 12, 2000

DCAA Report No. 4231-2000G19413001, “Audit of Compliance with Cost
Accounting Standard 413 Adjustment and Allocation of Pension Cost,”
September 12, 2000

DCAA Report No. 4231-2000G14410001, “Audit of Contractor Fiscal Year 1999
Insurance, Pension, and Restoration Plan Costs,” September 12, 2000

DCAA Report No. 4721-99F23000006, “Report on Audit of ESSS Pension Plan
Cost Projections For Calendar Years 1999 through 2006,” January 5, 2000

.DCAA Report No. 4721-2000F10160003, “Report on Audit of Northrop
Grumman Corporation’s Pension Plan Costs for Calendar Year 1997,”
December 17, 1999

DCAA Report No. 4231-99G14410202, “Report on Audit of Contractor Fiscal
Year 1998 Pension and Restoration Plan Costs,” September 24, 1999

DCAA Report No. 4721-99F19412001, “Report on Compliance with CAS 412 –
Composition and Measurement of Pension Costs,” September 21, 1999

DCAA Report No. 4721-99F19413001, “Report on Compliance with CAS 413
Allocation of Pension Cost,” September 8, 1999

DCAA Memorandum No. 4721-99F17900004, “Review of Accounting Data for
Northrop Grumman Corporation’s Proposed Merger of the Northrop Grumman,
ESSS, and Vought Pension Plans,” June 28, 1999

DCAA Report No. 4231-98G14980202, “Audit of Contractor Fiscal Year 1997
Pension and Restoration Plan Costs,” May 13, 1998
DCAA Report No. 4231-98G14980201, “Audit of Contractor Fiscal Year 1996
Pension and Restoration Plan Costs,” May 13, 1998

DCAA Comments on Appendix B. The DCAA also commented on the
statement that DCAA has issued two reports that deal with Litton’s pension costs
and one report dealing with Northrop Grumman’s allocation of pension costs in
the last 5 years. DCAA issued several audit reports in the last 5 years dealing
with Litton and Northrop Grumman pension costs in addition to the three listed in
the draft report. This appendix has been amended to incorporate the additional
DCAA audit reports.




                                   15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)


Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget
  Office of Federal Procurement Policy
     Executive Secretary Cost Accounting Standards Board




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        17
Defense Contract Audit Agency Comments




                    19
20
21
Final Report
 Reference




Revised
Page 14




               22
Defense Contract Management Agency
Comments




                    23
24
Team Members
The Audit Followup and Technical Support Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

David Brinkman
Ken Stavenjord
Ron Meissner
Bill Harshman
